                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416

                                                                     AUDIT REPORT
                                                               Issue Date: March 30, 2000
                                                               Number: 0-14

To:            Robert Baskin
               Associate Administrator for Field Operations

               Jane Palsgrove Butler
               Associate Administrator, Office of Financial Assistance

               Joseph Loddo
               Chief Financial Officer


From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit of 7(a) Service Fee Collections


                                         BACKGROUND

        Through the 7(a) loan program, the U.S. Small Business Administration (SBA)
guarantees loans made to small businesses by participating lenders. For loans approved after
October 12, 1995, lenders are required to pay SBA a yearly service fee equal to 0.5 percent of the
outstanding balance of the guaranteed portion of each loan. Lenders remit the fees on a monthly
basis, along with SBA Form 1502 – Guaranty Loan Status & Lender Remittance Form, to Colson
Services Corporation (Colson), SBA’s collection agent. Colson in turn remits the fees to SBA’s
Denver Finance Center. SBA records indicate that for the period October 1995 to May 1999, the
agency was due about $105 million in service fees on 140,165 loans.

        Although lenders are required to submit loan balance information each month, SBA does
not use those submissions to calculate fees due. Instead, it relies on: (a) lenders to calculate and
                  1
remit the fees due and (b) Colson to verify the accuracy of fees remitted based on the lender’s
monthly SBA Form 1502. The Office of Financial Assistance and the Office of the Chief
Financial Officer are jointly responsible for oversight and collection of 7(a) loan service fees.


1
 For secondary market loans, Colson calculates fees due based on the principal and interest
payments passed through by the lenders.
                                       Objective and Scope

        The audit objective was to determine if SBA collected the 7(a) loan service fees it was
due for the period October 1995 through April 1999. We performed two analyses on data files
drawn from SBA’s Loan Accounting System (LAS), and reviewed a sample of loans with
significant differences between calculated fee amounts due and collected.

       In the initial data file analysis, we calculated and compared fees due and collected for
78,586 “current” 7(a) loans. We calculated fees due based on the period of time since the initial
disbursement date, and the average of (a) the total loan amount disbursed and (b) the outstanding
balance at the time of the analysis. We calculated fees collected by totaling all transactions for
each loan recorded using the “fee collection” transaction code.

       To find the reasons for differences between calculated amounts due and collected, we
randomly selected 30 out of 129 loans with differences of more than $2,500. For each sample
loan, we analyzed lender transcripts, Colson records, and detailed SBA transaction files.

        Based on the sample results, we refined our analysis methodology, and calculated and
compared fees due and collected for 140,105 loans of all status types (e.g., current, paid-in-full,
and charged-off). In the revised analysis, we calculated fees due based on a time-weighted
average of all reported loan balances, and calculated fees collected based only on fee collection
transactions that affected cash.

       Fieldwork was performed at SBA Headquarters in Washington, D.C. between December
1998 and October 1999. The audit was conducted in accordance with government auditing
standards.

                                        AUDIT RESULTS

       Overall, the audit showed that SBA collected the 7(a) service fees it was due through
April 1999 for 95.5 percent of the 140,165 loans approved after October 12, 1995, but that it may
not have collected as much as $4.1 million for 4.5 percent of those loans. In addition, errors in
SBA records precluded accurate calculation of fees due and collected, incorrectly indicating fee
overpayments on 5.5 percent of the loans.

        SBA was not able to ensure the collection of fees due for all loans and the accuracy of its
records, because it did not have procedures in place to (a) calculate amounts due for comparison
with amounts collected, and (b) follow up with lenders on loans with significant differences. It
did, however, have the information necessary to implement such procedures. The loan balance
information lenders are required to submit each month could be used to calculate fees due and
establish receivable accounts. Using materiality thresholds and aging techniques, the receivable
accounts could be used to identify and correct both fee collection errors, as well as inaccurate
records.



                                                 2
1. Initial Analysis of Current Loans

        The initial analysis of data files from SBA’s loan accounting system, comparing fee
amounts due and collected on “current” loans only, indicated the agency collected the fees due
for almost 90 percent of the loans covered. For the remaining 10 percent, the analysis identified
differences of more than $250 between calculated amounts due and collected – both
                                     2
overpayments and underpayments. The calculated overpayments totaled about $2.6 million,
and the calculated underpayments totaled about $3.0 million.

2. Sample Results for Loans with Differences Greater than $2,500

       The sample of 30 loans contained 21 with calculated underpayments totaling $62,500,
and 9 with calculated overpayments totaling $60,800. Detailed review of lender transcripts and
SBA records showed that in most cases, calculated underpayments resulted from actual
underpayments, while calculated overpayments resulted from inaccurate SBA records, as
discussed below (see Attachment 1 for loan specific details).

         •   For 19 loans, SBA did not collect fees due totaling $65,174. The lenders either did
             not set up the loans for fee payments or miscalculated amounts due. In one instance,
             after we contacted the lender, it lender identified additional fees payable of $18,284
             on the remaining SBA loans in its portfolio.

         •   For 8 loans, SBA collected the fees due, but inaccurate SBA records caused errors in
             the calculation of fees due and collected. These inaccurate records involved (a)
             incorrect initial disbursement dates – five loans; (b) incorrect use of the fee collection
             transaction code – two loans; and (c) fee collections applied to the wrong loan – one
             loan. The inaccurate records were caused by lenders’ non-compliance with SBA
             reporting requirements and data entry errors.

         •   For 2 loans, SBA collected $3,088 more than it was due. One case involved duplicate
             fee payments made by the lender and by Colson on a secondary market loan. In the
             other case, the lender used an incorrect guarantee percentage and miscalculated fees
             due.

         •   For 1 loan, SBA collected the fees due, but an invalid assumption in the initial
             analysis on the timing of loan disbursements caused an error in the calculation of fees
             due. The loan was disbursed over a period of time, whereas, our analysis assumed
             loan was totally disbursed on the initial disbursement date.

        The sample review showed that data file analysis is an effective technique for identifying
loans with unpaid fees and inaccurate records. For 29 of the 30 sample loans, detailed review
showed that the differences between calculated amounts due and collected involved either (a) fee
collection errors or (b) inaccurate SBA records. Further, 18 of 19 calculated underpayments


2
    We considered differences of less than $250 to be immaterial.
                                                   3
involved actual underpayments, but only 2 of 11 calculated overpayments involved actual
overpayments.

        The sample review also showed that the initial data file analysis did not accurately
calculate (a) fees due on loans with sequential disbursements, and (b) fees collected on loans
where the “fee collection” transaction code was used to record non-cash transactions. We,
therefore, revised our analysis methodology to correct for such occurrences.

3. Revised Analysis of Loans of All Status Types

           As in the initial analysis, the revised analysis of SBA records indicated the agency
collected the fees due for 90 percent of the 140,165 loans covered. The revised analysis also
indicated that for 10 percent (13,873) of the loans, the difference between calculated amounts
due and collected was greater than $250, with both overpayments and underpayments, as
summarized in the following tables.

                                    Calculated Overpayments

                         Amount             # of Loans             Total
                          $250 - $500               4,430           $1,544,922
                        $500 - $1,000               2,228           $1,523,910
                      $1,000 - $2,500                 863           $1,276,737
                      $2,500 - $5,000                  87             $278,114
                             > $5,000                  25             $178,402
                               Totals               7,633           $4,802,085

                                   Calculated Underpayments

                         Amount             # of Loans             Total
                          $250 - $500               3,534           $1,230,455
                        $500 - $1,000               1,806           $1,237,282
                      $1,000 - $2,500                 772           $1,130,599
                      $2,500 - $5,000                 108             $358,786
                             > $5,000                  20             $128,944
                               Totals               6,240           $4,086,066

       Based on the results of the sample review, these differences between calculated amounts
due and collected reflect either: (a) actual overpayments or underpayments, or (b) inaccurate
SBA records. Moreover, calculated overpayments are more likely to involve inaccurate SBA
records, while calculated underpayments are more likely to involve actual underpayments.




                                                4
                                      Recommendations

      We recommend the Chief Financial Officer in conjunction with the Associate
Administrator for Financial Assistance, and Associate Administrator for Field Operations:

   1. Establish receivable accounts for 7(a) loan service fees. The accounts should be updated
      monthly using reported loan balance and fee collection information.

   2. Develop procedures and materiality thresholds for the receivable accounts to (a) identify
      loans with significant differences between amounts due and collected, (b) determine the
      cause and (c) implement corrective action.

   3. Collect the $65,000 in underpaid fees and refund the $2,100 in overpaid fees identified on
      Attachment 1.

   4. Using the data file (provided separately), request lenders with calculated underpayments
      totaling more than $1,000 to review their SBA loan portfolios and remit any fees due, or
      submit loan transcripts to substantiate that the calculated underpayments are the result of
      inaccurate SBA records. ($3.7 million of the $4.1 million in calculated underpayments
      was associated with 623 lenders with calculated underpayments totaling more than
      $1,000).
                                 SBA Management Response

        The Chief Financial Officer responded that effective management of servicing fees was
an important issue and that they were focused on improving this process. The CFO also
generally agreed with the report’s recommendations and replied that it needed to coordinate with
the Office of Financial Assistance (OFA) and the Office of Field Operations (OFO) to define
specific roles and responsibilities for implementing the recommendations.

                                        OIG Evaluation

       The CFO’s reply was responsive to the report and its recommendations.

                                            *****

        The findings in this report are based on the auditors’ conclusions, and the report
recommendations are subject to review, management decision, and action by your office in
accordance with existing Agency procedures for audit follow-up and resolution. Please
provide your management decision on SBA Form 1824 Recommendation Action Sheet, also
attached, within 30 days. This report may contain proprietary information subject to the
provisions of 18 USC 1905. Do not release to the public or another agency without permission
of the Office of Inspector General. Should you or your staff have any questions, please contact
John McCreary, Audit Manager, at (202) 205-7204.

Attachments
                                                5
                                                                                        Attachment 1

                                                                                        Page 1 of 2
 AUDIT OF 7(A) SERVICE FEE COLLECTIONS
Loan No.                              Results                            Calculated     Actual
                                                                         Under (Over) Amount Due
                                                                         Payment
                         Fees Not Collected

FOIA Ex. 4 Lender did not pay fees due 6/97 to 3/98.                           $2,586           $2,266
FOIA Ex. 4 Lender did not pay fees due 6/97 to 1/99.                           $3,647           $5,068
FOIA Ex. 4 Lender did not pay fees due 7/97 to 1/99.                           $3,790           $3,529
FOIA Ex. 4 Lender did not pay fees due 10/95 to 8/96.                          $4,147           $5,218
FOIA Ex. 4 Lender did not pay fees due 11/95 to 6/96 and 8/96 to 1/99.         $3,460           $3,952
FOIA Ex. 4 Lender did not pay fees due 7/96 to 1/99.                           $2,554           $2,289
FOIA Ex. 4 Lender did not pay fees due 12/95 to 12/96.                         $3,027             $751
FOIA Ex. 4 Lender did not pays fees due 11/96 to 10/98.                        $3,076           $3,700
FOIA Ex. 4 Lender did not pays fees due 12/95 to 10/96.                        $3,514           $3,654
FOIA Ex. 4 Lender did not pays fees due 2/96 to 8/97.                          $2,724           $2,775
FOIA Ex. 4 Lender did not pay fees due 12/95 to 4/97.                          $3,159           $3,177
FOIA Ex. 4 Lender did not pay fees due 4/96 to 10/96.                          $1,815           $1,264
FOIA Ex. 4 Lender did not pay fees due 1/96 to 12/97.                          $2,512           $1,628
FOIA Ex. 4 Lender did not pay fees due 12/96 to 6/98 and 7/98 to 1/99.         $2,941           $1,523
FOIA Ex. 4 Lender did not pay fees due 3/97 to 1/99.                           $4,082           $5,478
FOIA Ex. 4 Lender did not pay fees due 4/97 to 3/98 and 6/98 to 1/99.         -$3,220           $2,492
FOIA Ex. 4 Lender did not pay fees due 1/97 to 6/98.                           $4,973           $4,865
FOIA Ex. 4 Lender did not pay fees due for the period 8/97 to 1/99.*           $3,779           $5,603
FOIA Ex. 4 Lender did not pay fees due for the period 4/97 to 1/99.            $3,569           $5,942
                                                                 Total        $56,136          $65,174
* Lender identified additional fees due totaling $18,284 on the
remaining SBA loans in its portfolio.


                                                                                        Attachment 1
                                                                                           Page 2 of 2

AUDIT OF 7(A) SERVICE FEE COLLECTIONS
                                                                           Calculated         Actual
                                                                           Under (Over)       Amount
Loan No.                             Results                               Payment             Due
                       Fees Collected / Inaccurate Records

FOIA Ex. 4 Incorrect initial disbursement date in SBA records caused            ($2,591)                 $0
           understatement of fees due.
FOIA Ex. 4 Incorrect use of transaction code for fee collections caused        ($24,861)                 $0
           overstatement of fees collected.
FOIA Ex. 4 Fee payments for another loan were incorrectly applied to            ($2,806)                 $0
           this loan resulting in apparent overpayment.
FOIA Ex. 4 Incorrect use of transaction code for fee collections caused         ($5,013)                 $0
           overstatement of fees collected.
FOIA Ex. 4 Incorrect initial disbursement date in SBA records caused            ($3,936)                 $0
           understatement of fees due.
FOIA Ex. 4 Incorrect initial disbursement date in SBA records caused            ($4,654)                 $0
           understatement of fees due.
FOIA Ex. 4 Incorrect initial disbursement date in SBA records caused            ($3,770)                 $0
           understatement of fees due.
FOIA Ex. 4 Incorrect initial disbursement date in SBA records caused            ($2,938)                 $0
           understatement of fees due.
                                                                   Total       ($50,569)                 $0


                                  Fees Overpaid

FOIA Ex. 4 Lender overpaid fees from 6/96 to 1/99 due to incorrect              ($3,651)           ($995)
           guarantee percentage and calculation error. Incorrect
           SBA loan balance records caused understatement of fees
           due.
FOIA Ex. 4 Lender duplicated fee payments made by Colson 9/96 to                ($3,358)         ($2,093)
           8/97.
                                                                  Total         ($7,010)         ($3,088)


                        Invalid Disbursement Assumption

FOIA Ex. 4 Loan was disbursed sequentially, causing over statement of             $3,129                 $0
           fees due.
                                                               Total              $3,129                 $0



                                               7
8
                                                                                                          Attachment # 3

                                                 REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies


Deputy Administrator ..............................................................................................1

Chief Information Officer ........................................................................................1

General Counsel .......................................................................................................2

Director of Secondary Markets & 504, Office of Financial Assistance...................1

U.S. General Accounting Office ..............................................................................1




                                                                      9
